HHS/OIG, Audit, "Indiana Medicaid Durable Medical Equipment, Indiana Family and Social Services Administration, Indianapolis, Indiana," (A-05-01-00052)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Indiana Medicaid Durable Medical Equipment, Indiana Family and Social
Services Administration, Indianapolis, Indiana," (A-05-01-00052)
October 25, 2001
Complete
Text of Report is available in PDF format (184 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the
Indiana Medicaid program is adhering to its State Plan policy of paying durable
medical equipment (DME) suppliers based on the current Medicare payment ceilings
for DME items.  We identified payments made to 31 providers with the highest
amounts of Medicaid reimbursement above Medicare payment levels, for the period
October 1, 1997 through September 30, 2000, and found that they were overpaid
$2,667,790.  The overpayments occurred because the Indiana Office of Medicaid
Policy and Planning (OMPP) did not annually review and update its DME payment
rates to conform with current Medicare prices.  If OMPP had followed its
State Plan provision to adjust Medicaid payments to Medicare payment levels,
annual savings would have amounted to $889,000, or $4.4 million over a five-year
budget cycle.  We recommended that the OMPP:  (i) reimburse the Centers
for Medicare and Medicaid Services $1,637,756 (Federal share) for DME costs
claimed that exceeded the Medicare payment ceiling, (ii) consider recovering
the DME overpayment from unduly enriched providers, and (iii) adjust its DME
payment rates to insure that Medicare payment ceiling levels are not exceeded
in the future.